THE LAW OFFICES OF SETH KRETZER
9119 SOUTH GESSNER; SUITE 105
HOUSTON, TX 77054
TELEPHONE (713) 775-3050
SETH@KRETZERFIRM.COM

TELECOPIER (713) 929-2019
SKYPE: SETH.KRETZER

September 13, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States One First Street, N.E.
Washington, D.C. 2054
Re:

John H. Ramirez v. Brian Collier, Executive Director, Texas
Department of Criminal Justice, et al., Nos. 21-5592 and 21-70004
(Capital Case)

For purposes of Rule 37.3, Petitioner hereby provides his blanket consent to the
filing of amicus briefs in support of either or neither party in this case.
Sincerely,
Seth Kretzer
Counsel of Record
cc: Judd Stone, Texas Solicitor General (via e-mail)

